NO:
IN THE SUPREME COURT OF THE UNITED STATES

DOUGLAS JACKSON # 748757
Petitioner,
V

LEAH BEREAN et al;
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI
APPENDIX TO PETITION FOR WRIT OF CERTIORARI

VOLUME 1

DOUGLAS JACKSON # 748757
Baraga Correctional] Facility
13929 Wadaga Rd.
Baraga Michigan 49908

Case: 20-1296

/
//

Document: 17-2

/

Filed: 10/05/2020

Page: 1

No. 20-1296

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

DOUGLAS CORNELL JACKSON,
Plaintiff-Appellant,
v.
. LAW LIBRARIAN LEAH BEREAN, et al.,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)

Oct 05, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, GIBBONS, and KETHLEDGE, Circuit Judges.
Douglas Cornell Jackson, a Michigan prisoner proceeding pro se, petitions for rehearing of
this court’s August 21, 2020, order affirming the district court’s denial of his motion for relief
from judgment.
Upon review, we conclude that the court did not misapprehend or overlook any point of
law or fact when it issued the August 21, 2020, order. See Fed. R. App. P. 40(a). Accordingly,
we DENY the petition for rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

NOT RECOMMENDED FOR PUBLICATION

FILED
Aug 21, 2020
DEBORAH S. HUNT, Clerk

No. 20-1296
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

DOUGLAS CORNELL JACKSON,
Plaintiff-Appellant,
v.

LAW LIBRARIAN LEAH BEREAN, et al.,
Defendants-Appellees.

)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

)
)

ORDER

Before: SUHRHEINRICH, GIBBONS, and KETHLEDGE, Circuit Judges.

Douglas Cornell Jackson, a Michigan prisoner proceeding pro se, appeals the district
court’s order denying his motion for relief from judgment pursuant to Federal Rule of Civil
Procedure 60(b). This case has been referred to a panel of the court that, upon examination,
unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
Jackson filed a complaint alleging denial of access to the courts, retaliation, and other
constitutional claims. The district court dismissed the complaint without prejudice as to the
majority of the defendants after determining that Jackson’s claims against those defendants did
not relate to his principal claims concerning the denial of access to the legal writer program and
the library. See Fed. R. Civ. P. 21. The district court then dismissed Jackson’s remaining claims
pursuant to 28 U.S.C. §§ 1915(e)(2) and 1915A for failure to state a claim upon which relief
could be granted. Jackson appealed, and we affirmed. Jackson v. Berean, No. 19-1583, 2019
WL 6208147 (6th Cir. Nov. 19, 2019), cert, denied, No. 19-7702, 2020 WL 1978971 (U.S.
Apr. 27, 2020). Jackson then filed a motion for relief from judgment, arguing that the district
court made a substantive mistake of law and fact and that the law librarian engaged in

No. 20-1296
-2-

misconduct by continuing to prevent his access to the legal writer program. See Fed. R. Civ. P.
60(b). The district court denied the motion for relief from judgment after determining that it had
previously addressed Jackson’s arguments. Jackson now argues that the district court abused its
discretion in denying his motion for relief from judgment.
When reviewing the denial of a Rule 60(b) motion, we do not review the underlying
judgment; instead, our “review is limited to whether the district court abused its discretion in
denying the Rule 60(b) motion.” Yeschick v. Mineta, 675 F.3d 622, 628 (6th Cir. 2012).
Rule 60(b) provides for relief from a final judgment only in limited circumstances,
including “mistake, inadvertence, surprise, or excusable neglect” and “fraud (whether previously
called intrinsic or extrinsic), misrepresentation, or misconduct by an opposing party.” Fed. R.
Civ. P. 60(b)(1) and (3). Although Jackson asserts that the law librarian committed misconduct
in violation of Rule 60(b)(3) by preventing him from accessing the legal writer program, he has
not offered any evidence that the law librarian interfered with his ability to prosecute his
complaint. See Info-Hold, Inc. v. SoundMerch., Inc., 538 F.3d 448, 455 (6th Cir. 2008). In fact,
the district court rejected Jackson’s access-to-the-courts claim in part because he was able to
prepare a coherent complaint without assistance from a legal writer program.

Moreover,

Jackson’s argument that the district court made a mistake of law and fact is an attempt to reassert
the merits of his access-to-the-courts claim, but he cannot use Rule 60(b) to relitigate his case.
See Tyler v. Anderson, 749 F.3d 499, 509 (6th Cir. 2014). Accordingly, the district court did not
abuse its discretion in denying Jackson’s motion for relief from judgment.
Based upon the foregoing, we AFFIRM the district court’s order and DENY the motion
to proceed in forma pauperis as unnecessary.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

' Case l:18-cv-01075-JTN-SJB ECF No. 53 filed 04/14/20 PagelD.555 Page 1 of 5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN :
SOUTHERN DIVISION

DOUGLAS CORNELL JACKSON,
Plaintiff,

Case No. l:18-cv-1075
Honorable Janet T. Neff

v.

UNKNOWN BEREAN et al„
Defendants.

ORDER
This is a civil rights action brought by a state prisoner under 42 U.S.C. § 1983.
Plaintiff initially styled his complaint as a freestanding motion for injunctive relief (ECF No. 1), l
in which he alleged constitutional violations by numerous officials at the Oaks Correctional
Facility (ECF) that occurred between May 1 and September 1, 2018. Six weeks after filing his
initial pleading, Plaintiff filed a 46-page complaint on the form provided by the Court, which the
Court docketed as an amended complaint (ECF No. 9). The amended complaint realleged most of
the claims previously stated, with minor variations and a different emphasis. On January 22, 2019,
the Court issued an opinion and order (ECF Nos. 15, 16), dismissing 11 of the 14 named
Defendants without prejudice because the claims against them were misjoined. Following a full
examination of the allegations against the properly joined Defendants, the Court dismissed the
remainder of the complaint with prejudice for failure to state a claim (ECF Nos. 20, 22). Plaintiff
filed a motion for reconsideration (ECF No. 23). The Court construed Plaintiffs motion as a
1 Plaintiff argues that the Court should not have docketed his motion for injunctive relief as a complaint under 42
U.S.C. § 1983, but instead should have docketed it as it was titled. However, as the initial pleading in a new action,
the filing necessarily was deemed a complaint.

Case l:18-cv-01075-JTN-SJB ECF No. 53 filed 04/14/20 PagelD.556 Page 2 of 5'

timely motion to alter or amend judgment under Rule 59(e) of the Federal Rules of Civil Procedure
and denied it on April 1, 2019. (ECF No. 27.) ■
Plaintiff appealed to the Sixth Circuit. In an order (ECF No. 37) issued on
November 19, 2019, the Sixth Circuit affirmed this Court’s resolution of all issues. The Sixth
Circuit denied Plaintiffs request for rehearing on December 18, 2019. (ECF No. 38.) Plaintiffs
petition for writ of certiorari was denied by the Supreme Court on February 20, 2020.
Not deterred, Plaintiff filed a motion (ECF No. 41) seeking relief from judgment
and to reopen the case. In an order issued on March 27, 2020, this Court denied the motion.
(ECF No. 45.) The matter now is before the Court on yet another motion, which Plaintiff
characterizes as one seeking reconsideration from the March 27, 2020, order denying relief from
judgment.
In denying Plaintiff relief from judgment, the Court recognized that a Rule 60(b)
motion may be granted only for certain specified reasons: (1) mistake, inadvertence, surprise, or
excusable neglect; (2) newly discovered evidence; (3) fraud, misrepresentation, or the like; (4) the
judgment is void; (5) the judgment has been satisfied, released, or discharged, or a prior judgment
upon which it is based has been reversed or otherwise vacated, or it is no longer equitable that the
judgment should have prospective application; or (6) any other reason justifying relief from the
operation of the judgment. When none of the first five enumerated examples of Rule 60(b) apply,
relief is available only when exceptional or extraordinary circumstances are present. Cincinnati
Ins. Co. v. Byers, 151 F.3d 574, 578 (6th Cir. 1998). N
The Court considered Petitioner’s motion as one seeking relief under subsection (1)
of the rule, because Plaintiff both expressly invoked that subsection and contended that the Court
had committed numerous legal and factual errors in reaching its decisions that certain claims and

2

* Case l:18-cv-01075-JTN-SJB ECF No. 53 filed 04/14/20 PagelD.557 Page 3 of 5

Defendants were improperly joined and that the remaining claims lacked merit. Much of
Plaintiffs argument was addressed to the Court’s rejection of his many claims that; Defendants
denied him access to the courts. Plaintiff also alleged that the factual circumstances have changed,
because Defendant Berean allegedly interfered with his right to access the courts after the court
dismissed Plaintiffs complaint.
The Court rejected Plaintiffs arguments, concluding that it previously had
addressed Plaintiffs similar arguments about his then-pending claims both in its March 19, 2019,
opinion and its May 14, 2019, order denying reconsideration. In addition, the Court observed, the
Sixth Circuit had since affirmed this Court’s decisions and denied relief on appeal. “[Arguments
that were, or should have been, presented on appeal are generally unreviewable on a Rule 60(b) []
motion.” GenCorp, Inc. v. Olin Corp., All F.3d 368, 373 (6th Cir. 2007). Absent exceptional
circumstances not presented here, a trial court “is bound to ‘proceed in accordance with the
mandate and law of the case as established by the appellate court.’” Hanover Ins. Co. v. Am. Eng’g
Co., 105 F.3d 306, 312 (6th Cir. 1997) (quoting Petition of U.S. Steel Corp., 479 F.2d 489, 493
(6th Cir. 1973). “The Tawofthecase’ doctrine precludes a court from ‘reconsideration of identical
issues.’” Id. \ see also Westside Mothers v. Olszewski, 452 F.3d 532, 538 (6th Cir. 2006).
Further, the Court held, to the extent that Plaintiff sought to amend his complaint
to add new claims, he was not entitled to relief. A complaint cannot be amended after entry of
judgment unless the court first vacates the judgment under Rule 59 or 60, and then determines that
amendment is warranted. See Morse v. McWhorter, 290 F.3d 795, 800 (6th Cir. 2002) (“Following
entry of final judgment, a party may not seek to amend their complaint without first moving to
alter, set aside or .vacate judgment pursuant to either Rule 59 or Rule 60 of the Federal Rules of
Civil Procedure.”); see also In re Ferro Corp. Derivative Litig., 511 F.3d 611, 624 (6th Cir. .2008)

3

Case l:18-cv-01075-JTN-SJB ECF No. 53 filed 04/14/20 PagelD.558 Page 4 of 5 '

(unless post-judgment relief is granted, the district court lacks power to grant a motion to amend
the complaint). Because Plaintiff had not and could not demonstrate a basis for relief .from
judgment under Rule 60(b), the: Court held that Plaintiff was not entitled to amend his complaint
to add new claims.
Plaintiff now contends that the Court blatantly erred in failing to consider whether
Plaintiff was entitled to relief from judgment under Rule 60(b)(3), which Plaintiff contends he
expressly invoked. Plaintiff, however, did not invoke Rule 60(b)(3). Moreover, Plaintiff is not
entitled to relief under Rule 60(b)(3).
Under Rule 60(b)(3), a party may obtain relief from judgment on the grounds of
“fraud (whether previously called intrinsic or extrinsic), misrepresentation, or misconduct by an
opposing party.” Id. The provision permits relief where an adverse party in the federal case in
which the party seeks relief has committed fraud or misconduct before the court. See Klapprott v.
United States, 335 U.S. 601, 626 (1949); Hazel-Atlas Glass Co. v. Hartford Empire Co., 322 U.S.
238 (1944). In order to obtain relief under the rule, Plaintiff must demonstrate “by clear and
convincing evidence that the district court’s judgment was obtained by fraud or misconduct.”
Crehore v. United States, 253 F. App’x 547, 549 (6th Cir. 2007).
Plaintiff has neither alleged nor shown that this Court’s judgment was obtained by
Defendants’ fraud or misconduct. Indeed, Defendants were never served with the complaint in
this action and never filed an appearance. No misrepresentation by Defendants could have or did
affect this Court’s judgment. Moreover, Plaintiff utterly fails to address the fact that this Court
remains barred from granting the relief he requests by the Sixth Circuit’s decision upholding the
dismissal.

4

* Case l:18-cv-01075-JTN-SJB ECF No. 53 filed 04/14/20 PagelD.559 Page 5 of 5

: Western District of Michigan Local Civil Rule 7.4(a) provides that “motions for
reconsideration which merely present the same issues rule upon by the Court shall not be granted;’’
Plaintiff’s motion reiterates issues that have been raised repeatedly. Further, reconsideration is
appropriate only when the movant “demonstrate[s] a palpable defect by which the Court and the
parties have been misled . . . [and] that a different disposition must result from a correction
thereof.” Id. Plaintiff fails to demonstrate error—much less palpable error—in this Court’s March
27, 2020, decision.
Accordingly,
IT IS HEREBY ORDERED that Plaintiffs motion for reconsideration
(ECF No. 49) of this Court’s March 27, 2020, order denying relief from judgment (ECF No 41)
is DENIED.

Dated:

April 14,2020

/s/Janet T. Neff
Janet T. Neff
United States District Judge

■

5

r .
r

Case l:18-cv-01075-JTN-SJB ECF No. 45 filed 03/27/20 PagelD.533 Page 1 of 4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

DOUGLAS CORNELL JACKSON,
Plaintiff,

Case No. l:18-cv-1075
Honorable Janet T. Neff

v.
UNKNOWN BEREAN et al
Defendants.

ORDER DENYING RELIEF FROM JUDGMENT
This is a civil rights action brought by a state prisoner under 42 U.S.C. § 1983.
Plaintiff initially styled his complaint as a freestanding motion for injunctive relief (ECF No. 1), i
in which he alleged constitutional violations by numerous officials at the Oaks Correctional
Facility (ECF) that occurred between May 1 and September 1, 2018. Six weeks after filing his
V

initial pleading, Plaintiff filed a 46-page complaint on the form provided by the Court, which the
Court docketed as an amended complaint (ECF No. 9). The amended complaint realleged most of
the claims previously stated, with minor variations and a different emphasis. On January 22,2019,
the Court issued an opinion and order (ECF Nos. 15, 16), dismissing 11 of the 14 named
Defendants without prejudice because the claims against them were misjoined. Following a full
examination of the allegations against the properly joined Defendants, the Court dismissed the
remainder of the complaint with prejudice for failure to state a claim (ECF Nos. 20, 22). Plaintiff
filed a motion for reconsideration (ECF No. 23). The Court construed Plaintiffs motion, as a
1 Plaintiff argues that the Court should not have docketed his motion for injunctive relief as a complaint under 42
U.S.C. § 1983, but instead should have docketed it as it was titled. However, as the initial pleading in a new action,
the filing necessarily was deemed a complaint.

.

Case i:18-cv-01075-Jf N-SJB ECF No. 45 filed 03/27/20 PagelD.534 Page 2 of 4

timely motion to alter or amend judgment under Rule 59(e) of the Federal Rules df Civil Procedure
and denied it on April 1, 2019. (ECF No. 27.)
Plaintiff appealed to the Sixth Circuit. In an order (ECF No: 37) issued on
November 19, 2019, the Sixth Circuit affirmed this Court’s resolution of all issues. The Sixth
Circuit denied Plaintiffs request for rehearing on December 18, 2019. (ECF No. 38.) The matter
now is before the Court on Plaintiffs motion (ECF No. 41) seeking relief from judgment and to
reopen the case.
A Rule 60(b) motion may be granted only for certain specified reasons: (1) mistake,
inadvertence, surprise, or excusable neglect; (2) newly discovered evidence; (3) fraud,
misrepresentation, or the like; (4) the judgment is void; (5) the judgment has been satisfied,
released, or discharged, or a prior judgment upon which it is based has been reversed or otherwise
vacated, or it is no longer equitable that the judgment should have prospective application; or
(6) any other reason justifying relief from the operation of the judgment. When none of the first
five enumerated examples of Rule 60(b) apply, relief is available only when exceptional or
extraordinary circumstances are present.

Cincinnati Ins. Co. v. Byers, 151 F.3d 574, 578

(6th Cir. 1998).
Petitioner’s motion invokes subsection (1) of the rule. As he did in his motion for
reconsideration, Plaintiff contends that the Court committed numerous clear legal and factual
errors in reaching its decisions that certain claims and Defendants were improperly joined and that
the remaining claims lacked merit. Much of Plaintiff s argument is addressed to the Court’s denial
of his many claims that Defendants denied him access to the courts. Plaintiff 'also alleges that the
factual circumstances have changed, because Defendant Berean allegedly interfered with his right
to access the courts after the court dismissed Plaintiffs complaint.

2

%
*

Case l:18-cv-01075-JTN-SJB ECF No. 45 filed 03/27/20 PagelD.535 Page 3 of 4

. . -The Court previously addressed Plaintiff s similar arguments about his thenpending claims both in its March 19, 2019, opinion and, its. May 14, .2019, order denying
reconsideration. In addition, the Sixth Circuit has affirmed this Court’s decisions and denied relief
on appeal. “[Arguments that were, or should have been, presented on appeal are generally
unreviewable on a Rule 60(b)[] motion.” GenCorp, Inc. v. Olin Corp., All F.3d 368, 373 6th Cir.
2007). Absent exceptional circumstances not presented here, a trial court “is bound to ‘proceed in
accordance with the mandate and law of the case as established by the appellate court.’”. Hanover
Ins. Co. v. Am. Eng’g Co., 105 F.3d 306, 312 (6th Cir. 1997) (quoting Petition ofU.S. Steel Corp.,
479 F.2d 489, 493 (6th Cir. 1973). “The ‘law of the case’ doctrine precludes a court from
‘reconsideration of identical issues.’” Id.; see also Westside Mothers v. Olszewski, 452 F.3d 532,
538 (6th Cir. 2006).
Further, to the extent that Plaintiff seeks to amend his complaint to add new claims,
he is not entitled to relief. A complaint cannot be amended after entry ofjudgment unless-the court
first vacates the judgment under Rule 59 or 60, and then determines that amendment is warranted.
See Morse v. McWhorter, 290 F.3d 795, 800 (6th Cir. 2002) (“Following entry of final judgment,
a party may not seek to amend their complaint without first moving to alter, set aside or vacate
judgment pursuant to either Rule 59 or Rule 60 of the Federal Rules of Civil Procedure.”); see also
In re Ferro Corp. Derivative Litig., 511 F.3d 611, 624 (6th Cir. 2008) (unless post-judgment relief
is granted, the district court lacks power to grant a motion to amend the complaint). As earlier
discussed, Plaintiff has not and cannot demonstrate a basis for relief from judgment under Rule
60(b). He therefore is not entitled to amend his complaint to add new claims. Plaintiff may file a
complaint raising new claims at any time.

3

-i

Case l:18-cv-01075-JTN-SJB ECF No. 45 filed 03/27/20 PagelD.536 Page 4 of 4

In sum, Plaintiffs arguments were fully addressed in the Court’s March 19, 2019,
opinion and May 14, 2019, order denying reconsideration, and the Court finds no error in its prior
determinations. Moreover, the Sixth Circuit has affirmed this Court’s disposition of Plaintiffs
arguments. As a consequence, the Court lacks authority to grant relief from judgment on the issues
that were raised or should have been raised on appeal, and Plaintiff has failed to demonstrate any
other basis for reopening the case. Accordingly,
IT IS HEREBY ORDERED that Plaintiffs motion for relief from judgment
(ECF No 41) is DENIED.

Dated:

;

/s/ Janet T. Neff
Janet T. Neff
United. States District Judge

March 27, 2020

4

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.398 Filed 03/19/19 Page 1 of 25

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

DOUGLAS CORNELL JACKSON,
Plaintiff,
v.

Case No. l:18-cv-1075
Honorable Janet T. Neff

UNKNOWN BEREAN et al.,
Defendants.

OPINION
This is a civil rights action brought by a state prisoner under 42 U.S.C. § 1983. The
Court previously dropped eleven of the named Defendants and dismissed the claims against them
without prejudice, because they were misjoined. Under the Prison Litigation Reform Act, Pub. L.
No. 104-134, 110 Stat. 1321 (1996) (PLRA), the Court is required to dismiss any prisoner action
brought under federal law if the complaint is frivolous, malicious, fails to state a claim upon which
relief can be granted, or seeks monetary relief from a defendant immune from such relief. 28
U.S.C. §§ 1915(e)(2), 1915A; 42 U.S.C. § 1997e(c). The Court must read Plaintiffs pro se
complaint indulgently, see Haines v. Kerner, 404 U.S. 519, 520 (1972), and accept Plaintiffs
allegations as true, unless they are clearly irrational or wholly incredible. Denton v. Hernandez,
504 U.S. 25, 33 (1992). Applying these standards, the Court will dismiss Plaintiffs complaint for
failure to state a claim against the remaining Defendants.

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.399 Filed 03/19/19 Page 2 of 25

Discussion
I.

Factual Allegations

Plaintiff is presently incarcerated with the Michigan Department of Corrections
(MDOC) at the Oaks Correctional Facility (ECF).

Plaintiff sues MDOC Director Heidi

Washington and the following ECF officials: Law Librarian (unknown) Berean; Warden Les
Parish; Correctional Officers Wayne Janicki, (unknown) Bellinger, M. Brown, and (unknown)
Stone; Quartermaster J. Hensley; Prison Counselor Kendra Johnson; Sergeant Victor A. Baker;
Inspector Jeffrey Clouse; Deputy Wardens (unknown) Ball and (unknown) Thomas; and Dr. Roger
Crompton. In an opinion and order issued earlier, the Court concluded that Plaintiff s claims
against Defendants Janicki, Bellinger, Hensley, Johnson, Brown, Stone, Baker, Clouse, Ball,
Thomas, and Crompton were misjoined. The Court therefore dismissed the claims against them
without prejudice. As a consequence, the remaining portion of Plaintiffs amended complaint
involves his claims against Defendants Berean, Parish, and Washington only.
The remaining portion of Plaintiffs amended complaint concerns events arising
between May 31, 2018, when he arrived at ECF, and September 1, 2018, two weeks after he filed
his original complaint. Plaintiffs first set of allegations concerns Defendant Berean’s alleged
interference with Plaintiffs access to the courts by denying him a legal writer. Plaintiff complains
that when he arrived at ECF on May 31, 2018, he immediately notified Defendant Berean, who is
responsible for administering the legal-writer program at ECF, that he needed to be assigned a
legal writer for multiple purposes: (1) to file a motion for reconsideration of the June 4, 2018,
order of the United States Supreme Court, denying the petition for writ of certiorari in Jackson v.
Bouchard, No. 17-8351 (U.S. June 4, 2018); (2) to file a federal habeas corpus action following
the Michigan Supreme Court’s May 1, 2018, order in People v. Jackson, No. 156683 (Mich. May

2

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.400 Filed 03/19/19 Page 3 of 25

1, 2018); (3) to file an application for leave to appeal to the Michigan Court of Appeals as directed
by the Michigan Supreme Court in its June 22, 2018, order in People v. Jackson, No. 157835
(Mich. June 22, 2018); and (4) to file three petitions for judicial review of MDOC rehearing
denials.1 (Am. Compl., ECF No. 9, PageID.182-183.)
Plaintiff alleges that Defendant Berean did not provide him a legal writer for the
first matter, so he was forced to file a motion for reconsideration in the United States Supreme
Court by himself, despite the fact that he had no legal training. He alleges that he has not yet been
able to file the federal habeas action, referenced as item 2. Plaintiff claims that, with respect to
item 3, Defendant Berean provided him the document for filing on July 19, 2018, when it was due
on July 20, 2018. Finally, with respect to item 4, Plaintiff alleges that Defendant Berean has
provided no legal-writer assistance.
Plaintiff alleges that, on June 22, 2018, Defendant Berean told him that she had
made copies of his complaint, but that Plaintiff could not expect to receive assistance from legal
writers as long as he kept filing suits against the department. Plaintiff asked Defendant Berean on
June 26,2018, when she intended to assign him a legal writer so that he could the meet the deadline
for filing a grievance. She told him that he had a lot of nerve asking, after he repeatedly filed
lawsuits and grievances against staff. Plaintiff filed a grievance against Berean on June 29, 2018.
On July 19, 2018, Berean allegedly refused to make copies of certain documents
that Plaintiff claimed to need for his appeal of his Class-II misconduct hearing decisions. When
Plaintiff asked again, she told him to file another grievance, which Plaintiff did the following day.
On July 20, Plaintiff received a canary copy of a disbursement form for $2.56 in legal copies, and
the amount was charged to his account. He asserts that contrary to the representation in the

1 The Court notes that Plaintiffs representation that he advised Defendant Berean about all of these matters on May
31, 2018, clearly is not credible, given that first and third judicial actions did not take place until after that date.

3

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.401 Filed 03/19/19 Page 4 of 25

disbursement form, he did not refuse to sign the form. He alleges that Berean instead demanded
that he sign the form under a threat of initiating an administrative hearing. Plaintiff filed another
grievance on July 26, 2018.
On July 23, 2018, Plaintiff asked Berean to provide him with a legal writer to assist
in preparation of a motion to lift a stay and an amended habeas petition, to be filed in Jackson v.
Berghuis, No. 2:15-cv-11622 (E.D. Mich.). Because of Berean’s refusal, Plaintiff allegedly was
forced to seek help from other prisoners in order to file the motion and amended petition. On
August 16,2018, Plaintiff asked Defendant Berean to provide him assistance in preparing a motion
for reconsideration of this Court’s opinion dated August 6, 2018, in Jackson v. Powell, No. 1:18cv-466 (W.D. Mich.). Berean refused Plaintiffs request, forcing Plaintiff to seek the assistance
of other prisoners in preparing and filing a notice of appeal. Plaintiff also alleges that Defendant
Berean refused to provide a legal writer to prepare a response to the defendant’s motion for
summary judgment on the basis of exhaustion in Jackson v. Feliciano, No. 2:17-cv-77 (W.D.
Mich.). Plaintiff alleges that the denial has deprived him of the ability to proceed in that action.
On August 24, 2018, Defendant Berean approved Plaintiff for two extra hours of
law library, given his October 2018 filing deadline in Jackson v. Parish, No. 2:15-cv-l 1622 (E.D.
Mich.). Plaintiff complains, however, that on August 30, 2018, he was issued two Class-II
misconduct tickets for insolence for conduct that occurred in the library. Defendant Berean warned
Plaintiff that, if he was found guilty of the misconduct charges, he would lose his library privileges
for 60 days. After he was found guilty, Berean imposed the sanction she had threatened. Plaintiff
complains that the sanction violated MDOC Policy Directives 05.03.115 f Z (permitting the
barring of access to the library after a prisoner is found guilty of a Class I or Class II misconduct
in the library) and 04.05.12

V, W, CC (barring the withholding of items or privileges, including

4

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.402 Filed 03/19/19 Page 5 of 25

library access, for purposes of punishment, but permitting such sanctions for serious reasons of
safety or security). Plaintiff contends that he does not present a security or safety risk, so the taking
of his library privileges can only have been done in order to retaliate against Plaintiff for filing
grievances.
Plaintiff next challenges Defendant Washington’s adoption of and Defendant
Parish’s continuing enforcement of an electronic law library (ELL) system in 2014, which Plaintiff
alleges violates his right to access the courts, because it requires that a prisoner have some
computer knowledge to use it. In addition, he complains about Washington’s policy and Parish’s
and Berean’s enforcement of library-access policy for prisoners in segregation.

Segregation

prisoners are not allowed to go to the library and may only receive upon request five items at one
time, three days each week. MDOC Policy Directive 05.03.115 ^ R. Plaintiff argues that he does
not always receive the items he requests, he has to return them the next day, and he cannot review
sources to determine which requests to make.
Plaintiff alleges that all of these policies deprive him of his right to access the
courts.

He contends that the policy prevents him from filing a brief challenging the

constitutionality of Mich. Comp. Laws § 600.2963(8) (respecting the grant of pauper status in
cases where the prisoner owes a filing fee), which the Michigan Court of Appeals applied to bar
his complaint for superintending control in In re Jackson, No. 339724 (Mich. Ct. App.).
Plaintiff also argues that he suffered actual injury in another case, due to Defendant
Washington’s policies. In Jackson v. Feliciano, No. 2:17-cv-77 (W.D. Mich.), defendant Feliciano
moved for summary judgment on April 3,2018, asserting that Plaintiff had not properly exhausted
his administrative remedies. Plaintiff alleges that he had no available remedies in that case,

5

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.403 Filed 03/19/19 Page 6 of 25

because he was on modified grievance access and the grievance coordinator at MBP had denied
him a Step-I grievance form.
Plaintiff complains that Defendant Berean’s denial of a legal writer and Defendant
Washington’s policies also prevented him from responding to a defendant’s motion for summary
judgment on the basis of exhaustion in Jackson v. Bastian, No. 2:18-cv-16 (W.D. Mich.). Plaintiff
also asserts that he was prevented from exhausting his administrative remedies by threats and
intimidation.
Plaintiff also alleges that the actions and policies of Berean, Washington, and Parish
interfered with his right to access the courts in Jackson v. Mich. Dep ’t of Corr., No. 16-6663-AA
(Baraga Cty. Cir. Ct.), when he was prevented from filing an application for leave to appeal to the
Michigan Supreme Court to remand to the court of appeals on the ground that Mich. Comp. Laws
§ 600.2963(8) was unconstitutional when applied to Plaintiffs pro se application for leave to
appeal the denial of his petition for judicial review.
In addition, Plaintiff complains that Defendant Berean denied him access to the
courts by refusing to provide Plaintiff a legal writer to prepare a complaint seeking injunctive relief
in this Court from Berean’s imposition of a 60-day bar on his library access. Plaintiff argues that
he therefore was required to rely on the advice of prisoners untrained in the law to prepare his
“motion” (i.e., the original complaint in this action). Plaintiff alleges that the actual injury he
suffered was an inability to obtain relief from the library restriction before it had expired.
Plaintiff also complains that his placement in the Start Unit,2 which was set forth in
a Director’s Office Memorandum (DOM) on December 20, 2017, was improper, because he did

2 The Start Unit is an alternative placement to administrative segregation, which the MDOC has piloted for Level-V
prisoners at the Ionia Correctional Facility and the Marquette Branch Prison, and for Level-IV prisoners at the Oaks
Correctional Facility. Prisoners in the Start Unit receive individualized plans setting behavioral benchmarks.

6

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.404 Filed 03/19/19 Page 7 of 25

not fit the requirements of the DOM. See Mich. Dep’t of Corr., DOM 2018-22 (Dec. 20, 2017).
He also complains that the pilot program outlined in DOM 2018-22 should have only had effect
during the year it was issued, after which it should have either been made policy or terminated.
Plaintiff alleges that Defendants Washington and Parish denied him his rights by implementing
the DOM to place him and keep him in the Start Unit.
Plaintiff further alleges that, on September 11, 2018, Defendant Berean told
Plaintiff that he would not be provided a legal writer for an unspecified challenge to his criminal
conviction. On September 12, 2018, he was denied white business envelopes for mailing to the
courts. On September 13, 2018, Prison Counselor Surbrook (not a defendant) told Plaintiff that
ECF staff would cause him to miss every court date respecting his pending litigation. Plaintiff
alleges that he was deprived of paper on September 14-16, 2018, and Resident Unit Manager
Thomas (not a defendant) denied him paper and envelopes on September 17, 2018. On September
21, 2018, Defendant Berean allegedly told Plaintiff, “I could say that you never asked for legal
writer assistance.” (Am. Compl., ECF No. 9, PageID.216.)
Plaintiff claims that Defendant Berean denied him his right to access the courts by
refusing to provide him a legal writer and by delaying making copies of his documents. He also
claims that Defendants Berean, Parish, and Washington violated his rights to access the courts by
creating and enforcing the ELL and segregation library policies. In addition, Plaintiff argues that
Defendant Berean retaliated against him for filing grievances and lawsuits by imposing an
additional 60-day sanction on his library usage after he was found guilty of two misconducts, in
violation of policy; by threatening to file a notice of intent to conduct an administrative hearing to
collect the funds; and by accusing Plaintiff of having a paper of hers, resulting in a search of

Prisoners who meet their benchmarks move progressively through the four stages of the program, with increasing
privileges at each stage. See Mich. Dep’t of Corr. Director’s Office Memorandum 2019-22 (eff. Jan. 1, 2019).

7

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.405 Filed 03/19/19 Page 8 of 25

Plaintiffs cell. Further, Plaintiff argues that Defendants Washington and Berean violated his right
to due process by placing him and continuing him in the Start Unit, because he did not fit the
requirements of the program and because the pilot program established by DOM should only have
had effect in the year it was adopted. Finally, Plaintiff suggests that Defendant Berean’s actions
interfered with his ability to file grievances, arguably in violation of his rights to due process and
to petition government.
Plaintiff seeks declaratory and injunctive relief, together with compensatory and
punitive damages.
II.

Failure to State a Claim

A complaint may be dismissed for failure to state a claim if it fails ‘“to give the
defendant fair notice of what the ... claim is and the grounds upon which it rests.’” BellAtl. Corp.
v. Twombly, 550 U.S. 544, 555 (2007) (quoting Conley v. Gibson, 355 U.S. 41, 47 (1957)). While
a complaint need not contain detailed factual allegations, a plaintiffs allegations must include
more than labels and conclusions. Twombly, 550 U.S. at 555; Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (“Threadbare recitals of the elements of a cause of action, supported by mere conclusory
statements, do not suffice.”). The court must determine whether the complaint contains “enough
facts to state a claim to relief that is plausible on its face.” Twombly, 550 U.S. at 570. “A claim
has facial plausibility when the plaintiff pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at
679. Although the plausibility standard is not equivalent to a ‘“probability requirement,’ ... it
asks for more than a sheer possibility that a defendant has acted unlawfully.” Iqbal, 556 U.S. at
678 (quoting Twombly, 550 U.S. at 556). “[Wjhere the well-pleaded facts do not permit the court
to infer more than the mere possibility of misconduct, the complaint has alleged - but it has not

8

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.406 Filed 03/19/19 Page 9 of 25

lshow[n]’ - that the pleader is entitled to relief.” Iqbal, 556 U.S. at 679 (quoting Fed. R. Civ. P.
8(a)(2)); see also Hill v. Lappin, 630 F.3d 468, 470-71 (6th Cir. 2010) (holding that the
Twombly/Iqbal plausibility standard applies to dismissals of prisoner cases on initial review under
28 U.S.C. §§ 1915A(b)(l) and 1915(e)(2)(B)(i)).
To state a claim under 42 U.S.C. § 1983, a plaintiff must allege the violation of a
right secured by the federal Constitution or laws and must show that the deprivation was committed
by a person acting under color of state law. West v. Atkins, 487 U.S. 42, 48 (1988); Street v. Corr.
Corp. of Am., 102 F.3d 810, 814 (6th Cir. 1996). Because § 1983 is a method for vindicating
federal rights, not a source of substantive rights itself, the first step in an action under § 1983 is to
identify the specific constitutional right allegedly infringed. Albright v. Oliver, 510 U.S. 266, 271
(1994).
III.

Access to the Courts

Plaintiff alleges that Defendant Berean violated his right to access the courts on
numerous occasions by denying him a legal writer, refusing to make copies of certain documents
on July 19, 2018, imposing a 60-day bar on his library access, and enforcing the prison ELL and
segregation library policies.

In addition, Plaintiff argues that Defendants MDOC Director

Washington and Warden Parish deprived him of his right to access the courts by creating or
following a policy of having only an ELL library system and by creating or continuing a
segregation policy that prevents segregation prisoners from visiting the library.
It is well established that prisoners have a constitutional right of access to the courts.
Bounds v. Smith, 430 U.S. 817, 821 (1977). The principal issue in Bounds was whether the states
must protect the right of access to the courts by providing law libraries or alternative sources of
legal information for prisoners. Id. at 817. The Court further noted that in addition to law libraries

9

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.407 Filed 03/19/19 Page 10 of 25

or alternative sources of legal knowledge, the states must provide indigent inmates with “paper
and pen to draft legal documents, notarial services to authenticate them, and with stamps to mail
them.” Id. at 824-25. The right of access to the courts also prohibits prison officials from erecting
barriers that may impede the inmate’s access to the courts. See Knop v. Johnson, 977 F.2d 996,
1009 (6th Cir. 1992).
An indigent prisoner’s constitutional right to legal resources and materials is not,
however, without limit. In order to state a viable claim for interference with his access to the
courts, a plaintiff must show “actual injury.” Lewis v. Casey, 518 U.S. 343, 349 (1996); see also
Talley-Bey v. Knebl, 168 F.3d 884, 886 (6th Cir. 1999); Knop, 977 F.2d at 1000. In other words,
a plaintiff must plead and demonstrate that the shortcomings in the prison legal assistance program
or lack of legal materials have hindered, or are presently hindering, his efforts to pursue a
nonfrivolous legal claim. Lewis, 518 U.S. at 351-53; see also Pilgrim v. Littlefield, 92 F.3d 413,
416 (6th Cir. 1996). The Supreme Court has strictly limited the types of cases for which there may
be an actual injury:
Bounds does not guarantee inmates the wherewithal to transform themselves into
litigating engines capable of filing everything from shareholder derivative actions
to slip-and-fall claims. The tools it requires to be provided are those that the
inmates need in order to attack their sentences, directly or collaterally, and in order
to challenge the conditions of their confinement. Impairment of any other litigating
capacity is simply one of the incidental (and perfectly constitutional) consequences
of conviction and incarceration.
Lewis, 518 U.S. at 355. “Thus, a prisoner’s right to access the courts extends to direct appeals,
habeas corpus applications, and civil rights claims only.” Thaddeus-X v. Blatter, 175 F.3d 378,
391 (6th Cir. 1999) (en banc). Moreover, the underlying action must have asserted a non-frivolous
claim. Lewis, 518 U.S. at 353; accordHadix v. Johnson, 182 F.3d 400, 405 (6th Cir. 1999) {Lewis
changed actual injury to include requirement that action be non-frivolous).

10

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.408 Filed 03/19/19 Page 11 of 25

In addition, the Supreme Court squarely has held that “the underlying cause of
action ... is an element that must be described in the complaint, just as much as allegations must
describe the official acts frustrating the litigation.” Christopher v. Harbury, 536 U.S. 403, 415
(2002) (citing Lewis, 518 U.S. at 353 & n.3). “Like any other element of an access claim, the
underlying cause of action and its lost remedy must be addressed by allegations in the complaint
sufficient to give fair notice to a defendant.” Id. at 416.
Plaintiff fails to demonstrate that he suffered actual injury with respect to any of his
many allegations that Defendant Berean interfered with his right to access the courts when she
refused to grant him a legal writer. Although Plaintiff alleges that he should be provided a legal
writer because he is not trained in the law, he does not allege that he lacks adequate education or
is otherwise incapable of reading and writing. Instead, he claims that he does not have legal
training.
Plaintiff is an experienced litigator in the federal courts. He has filed seven civil
rights actions in this Court, including this one. See Jackson v. Berean et al., No. l:18-cv-1075
(W.D. Mich.); Jackson v. Powell et al., No. l:18-cv-466 (W.D. Mich.); Jackson v. Coronado et
al., No. 2:18-cv-19 (W.D. Mich.); Jackson v. Bastion, No. 2:18-cv-16 (W.D. Mich.); Jackson v.
Kokko et al., No. 2:18-cv-15 (W.D. Mich.); Jackson v. Feliciano et al., No. 2:17-cv-77 (W.D.
Mich.); Jackson v. Bouchard, No. 2:16-cv-246 (W.D. Mich.). All of his civil rights cases, with
the exception of the last one listed, remain pending in this Court. Plaintiff also filed one habeas
corpus petition in this Court, which the Court dismissed for lack of exhaustion on June 4, 2013.
See Jackson v. McKee, No. l:13-cv-464 (W.D. Mich. June 4, 2013). Plaintiff also has filed civil
rights actions in the Eastern District of Michigan. See Jackson v. Evans et al., No. 2:1 l-cv-13524
(E.D. Mich.) (dismissed for failure to state a claim on Aug. 31, 2011); Jackson v. Saverhood, No.

11

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.409 Filed 03/19/19 Page 12 of 25

2:1 l-cv-13173 (E.D. Mich.) (summary judgment granted on March 13, 2014); Jackson v. Mich.
Dep’t of Corr. et al, No. 2:14-cv-13093 (E.D. Mich.) (voluntarily dismissed on Nov. 13, 2014).
Plaintiff also filed a habeas corpus petition in the Eastern District of Michigan in 2015, see Jackson
v. Parish, No. 2:15-cv-l 1622 (E.D. Mich.), which was subsequently stayed while he exhausted his
state-court remedies. (2:15-cv-l 1622, ECF No. 5). Petitioner subsequently moved to reopen the
case and filed two lengthy amended petitions on September 5,2018, and December 7,2018. (2:15cv-11622, ECF Nos. 34, 46.)
In his many cases, Plaintiff has routinely drafted his own complaints, together with
innumerable motions, requests for reconsideration, and appeals. He has demonstrated that he is
fully capable of litigating cases without the assistance of a legal writer. Indigent habeas petitioners
and civil rights complainants have no constitutional right to a court-appointed attorney. Johnson
v. Avery, 393 U.S. 483, 488 (1969) (habeas petitioner); Barker v. Ohio, 330 F.2d 594, 594-95 (6th
Cir. 1964) (habeas petitioner); see also Abdur-Rahman v. Mich. Dep’t of Corr., 65 F.3d 489, 492
(6th Cir. 1995) (civil rights complainant); Lovado v. Keohane, 992 F.2d 601, 604-05 (6th Cir.
1993) (civil rights complainant). Moreover, a defendant’s obligation to ensure that prisoners have
access to the courts does not entitle that prisoner to be assisted by a legal writer unless the prisoner
is unable to pursue his claim without the assistance of another or when the prisoner has no access
to a law library. See Bounds, 430 U.S. at 828 (holding that a prison must provide either an adequate
law library or other forms of legal assistance); see also Knop, 977 F.2d at 1004 (emphasizing that
a legal access program need not include any particular element and that “the touchstone is access
to the courts, not access to lawyers”).
In addition, Plaintiff has suffered no injury with respect to any of the denials of a
legal writer. In Jackson v. Bouchard, No. 17-8351 (U.S.), Plaintiff drafted his own petition for

12

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.410 Filed 03/19/19 Page 13 of 25

writ of certiorari. Plaintiff provides no evidence that, when the Supreme Court denied the writ,
Plaintiff needed a legal writer to respond. He had his petition and the Supreme Court’s denial.
Nothing interfered with his making a request for reconsideration.
With respect to Berean’s alleged denials of a legal writer to assist Plaintiff in filing
an amended habeas corpus petition in the Eastern District of Michigan, Petitioner cannot show
actual injury, because he drafted a successful motion to lift the stay and filed two lengthy amended
petitions in that case. See Jackson v. Parish, No. 2:15-cv-l 1622 (E.D. Mich.) (ECF Nos. 34, 46).
In People v. Jackson, No. 157835 (Mich.), Plaintiff suffered no actual injury arising
out of any denial of a legal writer. In an order issued on June 22, 2018, the supreme court directed
Plaintiff to file a new application within 14 days, addressing only whether the court of appeals had
erred in dismissing Plaintiffs delayed application for leave to appeal. People v. Jackson, 912
N.W.2d 560 (Mich. June 22, 2018). Plaintiff filed his new application on July 23, 2018, and it
was accepted by the court under the mailbox rule. See Mich. Ct. Docket Sheet for People v.
Jackson, Case No. 157835, https://courts.michigan.gov/opinions_orders/case_search/pages/
default.aspx?SearchType=l&CaseNumber=157835&CourtType_CaseNumber=l. On October 2,
2018, the supreme court issued an order, remanding the case to the court of appeals to hold in
abeyance pending the court of appeals’ decision in In re Jackson, No. 339724 (Mich. Ct. App.).
People v. Jackson, 917 N.W.2d 658 (Mich. Oct. 2, 2018).
Moreover, with respect to Plaintiff s unspecified appeals of misconduct convictions
that were due when he arrived at ECF on May 31, 2018, Plaintiff utterly fails to identify those
misconducts or to specify how any appeal would have been nonfrivolous. More importantly,
however, a petition for judicial review of a misconduct conviction is not an attack on the prisoner’s
conviction or sentence; nor is it a challenge to the conditions of confinement. Jackson v. Jamrog,

13

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.411 Filed 03/19/19 Page 14 of 25

411 F.3d 615, 619 (6th Cir. 2005); see also Rodgers v. Hawley, 14 F. App’x 403, 409 (6th Cir.
2001) (holding that the inability to appeal a misconduct conviction does not amount to actual
injury); c.f Thomas v. Eby, 481 F.3d 434, 440 (6th Cir. 2007) (holding that a major misconduct
conviction does not affect the duration of a prisoner’s sentence in Michigan for prisoners, like
Petitioner, who were convicted after 1987). For the same reasons, Plaintiff cannot demonstrate
actual injury arising from Berean’s June 19, 2018, refusal to provide him copies of documents
necessary for his appeal of his Class-II misconduct convictions. Rodgers, 14 F. App’x at 409.
Plaintiff claims that, on July 23, 2018, Berean refused him a legal writer to file a
motion for reconsideration of the Court’s partial dismissal of his complaint in Jackson v. Powell,
No. 1:18-cv-466 (W.D. Mich.) (ECF No. 7). Plaintiff, however, filed a motion for reconsideration
(ECF No. 9) on August 29,2018, and the motion was granted in part and denied in part on October
4, 2018 (ECF No. 18). Plaintiff utterly fails to show that he suffered actual injury from Defendant
Berean’s denial of a legal writer.
Plaintiff alleges that Defendant Berean refused to provide him a legal writer to
prepare a response to a motion for summary judgment on the grounds of exhaustion in Jackson v.
Feliciano, No. 2:17-cv-77 (W.D. Mich.). Plaintiff, however, was fully able to file two affidavits
in response to the motion. (2:17-cv-77, ECF Nos. 66, 68.) In addition, Plaintiff thereafter was
able to file a motion and brief seeking an extension of time to file a response to the report and
recommendation to grant defendant’s motion. (2:17-cv-77, ECF Nos. 70-71.) Thus, Plaintiff has
suffered no apparent interference with his ability to enter filings in the case. Moreover, in order
to respond to the defendant’s motion for summary judgment on the basis of exhaustion, Plaintiff
had no need for legal assistance. The question before the court was factual: Did Plaintiff exhaust
his available administrative remedies? In the instant amended complaint (drafted by Plaintiff),

14

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.412 Filed 03/19/19 Page 15 of 25

Plaintiff describes in detail the reasons his administrative remedies were unavailable to him.
Because he was able to make those allegations in the instant case, he could easily have included
them in his affidavits in response to the motion, which were filed at approximately the same time
as his initial complaint in this action, three months before the report and recommendation issued
in Case No. 2:17-cv-77. These facts demonstrate that Plaintiff had and continues to have within
his control the resources and ability to litigate the case without the assistance of a legal writer. He
therefore fails to show actual injury caused by Defendant Berean’s refusal to give him a legal
writer.
Moreover, because Plaintiff fails to allege facts showing actual injury to any of his
pending cases, Plaintiff also fails to state an access-to-the-courts claim against Defendant Berean
for imposing a 60-day library sanction when Plaintiff was found guilty of the August 30, 2018,
misconduct charges. For the same reasons, Plaintiff fails to state an access-to-the-courts claim
against Defendants Washington, Parish, or Berean for creating or enforcing the ELL and
segregation policies.
IV.

Retaliation

Plaintiff alleges that Defendant Berean retaliated against him for filing grievances
when she imposed an additional 60-day sanction on his library usage after he was found guilty of
two misconducts that occurred in the library. (Am. Compl. ECF No. 9, PagelD. 184-185, 188.)
Plaintiff bases his claim of retaliation on his belief that Berean was not authorized to impose more
than a 30-day sanction arising out of a single incident. (Id. (citing Mich. Dep’t of Corr. Policy
Directive 03.03.105, Attachments D & E).) In addition, Plaintiff complains that Defendant Berean
retaliated against him for refusing to sign his name on a photocopy form, by threatening to file a
notice of intent to conduct an administrative hearing to collect the funds and by accusing Plaintiff

15

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.413 Filed 03/19/19 Page 16 of 25

of having a paper of hers, resulting in a search of Plaintiff s cell. (Id, PagelD. 183-84 (Iffl 12, 14),
217-18 fl[102) (referencing paragraphs supporting retaliation).)
Retaliation based upon a prisoner’s exercise of his or her constitutional rights
violates the Constitution. See Thaddeus-Xv. Blatter, 175 F.3d 378, 394 (6th Cir. 1999) (en banc).
In order to set forth a First Amendment retaliation claim, a plaintiff must establish that: (1) he was
engaged in protected conduct; (2) an adverse action was taken against him that would deter a
person of ordinary firmness from engaging in that conduct; and (3) the adverse action was
motivated, at least in part, by the protected conduct. Id. Moreover, a plaintiff must be able to
prove that the exercise of the protected right was a substantial or motivating factor in the
defendant’s alleged retaliatory conduct. See Smith v. Campbell, 250 F.3d 1032, 1037 (6th Cir.
2001) (citing Mount Healthy City Sch. Dist. Bd. ofEduc. v. Doyle, 429 U.S. 274, 287 (1977)).
Plaintiff first claims that Defendant Berean sanctioned him to a 60-day loss of
library privileges in retaliation for filing grievances. Plaintiff acknowledges that he was found
guilty of two misconduct charges written by officials other than Berean, both of which arose out
of his behavior in the library. He argues, however, that the sanction must have been retaliatory,
because the length of the sanction violated MDOC Policy Directives 05.03.115 1f Z and 04.05.12
HTf V, W, and CC.
It is well recognized that “retaliation” is easy to allege and that it can seldom be
demonstrated by direct evidence. See Harbin-Bey v. Rutter, 420 F.3d 571, 580 (6th Cir. 2005);
Murphy v. Lane, 833 F.2d 106, 108 (7th Cir. 1987). “[AJlleging merely the ultimate fact of
retaliation is insufficient.” Murphy, 833 F.2d at 108. “[C]onclusory allegations of retaliatory
motive ‘unsupported by material facts will not be sufficient to state ... a claim under § 1983.’”
Harbin-Bey, 420 F.3d at 580 (quoting Gutierrez v. Lynch, 826 F.2d 1534,1538-39 (6th Cir. 1987));

16

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.414 Filed 03/19/19 Page 17 of 25

see also Murray v. Unknown Evert, 84 F. App’x 553, 556 (6th Cir. 2003) (in complaints screened
pursuant to 28 U.S.C. § 1915A, “[cjonclusory allegations of retaliatory motive with no concrete
and relevant particulars fail to raise a genuine issue of fact for trial”) (internal quotations omitted);
Lewis v. Jarvie, 20 F. App’x 457, 459 (6th Cir. 2001) (“bare allegations of malice on the
defendants’ parts are not enough to establish retaliation claims” that will survive § 1915A
screening). In some circumstances, temporal proximity “may be ‘significant enough to constitute
indirect evidence of a causal connection so as to create an inference of retaliatory motive.’”
Muhammad v. Close, 379 F.3d 413, 417-18 (6th Cir. 2004) (quoting DiCarlo v. Potter, 358 F.3d
408, 422 (6th Cir. 2004)). However, “[cjonclusory allegations of temporal proximity are not
sufficient to show a retaliatory motive.” Skinner v. Bolden, 89 F. App’x 579, 580 (6th Cir. 2004).
With respect to the claim that Berean imposed a 60-day, rather than a 30-day
restriction on Plaintiffs library privileges, Plaintiffs claim is conclusory. He alleges no facts from
which to reasonably infer that Defendants’ actions were motivated by his protected conduct, rather
than because Plaintiff was insubordinate in the library, resulting in the filing of two misconduct
charges against him. Plaintiff merely concludes that because he filed numerous grievances within
a few days, weeks or months before Defendants’ actions, his actions must have been motivated by
Plaintiffs grievances. The Sixth Circuit, however, has been reluctant to find that temporal
proximity between the filing of a grievance and an official’s adverse conduct, standing alone, is
sufficient to establish a retaliation claim. Hill v. Lappin, 630 F.3d 468, 476 (6th Cir. 2010). This
is especially true where, as here, the plaintiff is a prolific filer of grievances.

Coleman v.

Bowerman, 474 F. App’x 435, 437 (6th Cir. 2012) (holding that temporal proximity to the filing
of a grievance is insufficient because any adverse action “would likely be in ‘close temporal
proximity’ to one of [the plaintiffs] many grievances or grievance interviews”). Plaintiff merely

17

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.415 Filed 03/19/19 Page 18 of 25

alleges temporal proximity between Defendants’ conduct and his many grievances.

Such

allegations are insufficient to state a retaliation claim.
Moreover, Plaintiffs entire claim concerning the 60-day restriction is based on his
conflation of loss-of-privileges penalties imposed by the misconduct hearing officer, see Mich.
Dep’t of Corr. Policy Directive 03.03.105, Attach. D & E, with the librarian’s ability to impose a
library ban following conviction on a misconduct charge, see Mich. Dep’t of Corr. Policy Directive
05.03.115

Z. Under the latter policy, the librarian is entitled to issue an unrestricted library ban.

No presumption of a. 30-day ban exists.
Plaintiffs next retaliation claim against Berean has to do with Berean’s allegedly
retaliatory issuance of two notices of intent to take funds from his account to pay for copying of
documents Plaintiff received from the Legal Writer program. Plaintiff appears to contend that
Berean issued the notices of intent in retaliation for Plaintiffs refusal to sign disbursement forms,
which he contends was an exercise of his First Amendment rights. According to Plaintiff s
allegations and his attachments to his amended petition, Plaintiff refused to sign a legal photocopy
disbursement authorization in the amount of $2.40 on July 19, 2018. (7/19/18 Disbursement
Authorization I, ECF No. 9-1, PageID.246.) As a result, Defendant Berean issued a Notice of
Intent to Conduct an Administrative Hearing.

(7/23/18 Notice of Intent I, ECF No. 9-1,

PageID.245.) That same date, Plaintiff refused to sign a disbursement authorization for $.16
(7/19/18 Disbursement Authorization II, ECF No. 9-1, PageID.248), and Defendant Berean issued
a second notice of intent on July 23, 2018 (7/23/18 Notice of Intent II, ECF No. 9-1, PageID.247).
Following a hearing on both notices, the funds were ordered to be disbursed from Plaintiffs
account.

18

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.416 Filed 03/19/19 Page 19 of 25

Plaintiffs allegations fail to support any element of a retaliation claim. First, no
legal authority suggests that a prisoner’s refusal to sign a form authorizing disbursement of funds
for copies received by the prisoner amounts to protected conduct for purposes of a retaliation claim.
Indeed, it is well established that conduct violating a legitimate prison regulation is not protected
by the First Amendment. See Lockett v. Suardini, 526 F.3d 866, 874 (6th Cir. 2008) (name-calling
of guards is not protected conduct); see also Caffey v. Maue, 679 F. App’x 487 (7th Cir. 2017)
(holding that an inmate’s name-calling of guards was a challenge to the guards’ authority that was
not protected by the First Amendment); Felton v. Huibregtse, 525 F. App’x 484, 487 (7th Cir.
2013) (holding that the use of disrespectful language was not protected conduct) (citing cases);
Freeman v. Tex. Dep’t of Crim. Justice, 369 F.3d 854, 858, 864 (5th Cir. 2004) (concluding that
an inmate who accused a chaplain of theological errors during a religious service had engaged in
an unprotected challenge to institutional authority). Plaintiff had no inherent right to refuse to pay
for copies he received. Second, the holding of an administrative hearing to determine whether the
prisoner’s property may be taken is not adverse action. Instead, such a hearing is required by
prison policy, see Mich Dep’t of Corr. Policy Directive 04.02.105 ^ T, and the practice ensures
minimally necessary due process before property is confiscated.

Third, absolutely nothing

suggests that Berean was motivated by an intent to retaliate, instead of her expressed intent to
collect payment for services Plaintiff received. Plaintiffs retaliation claim is frivolous.
In his final retaliation claim, Plaintiff argues that Defendant Berean ordered his cell
searched in retaliation for his refusal to sign the photocopy disbursement form. As previously
discussed, Plaintiffs refusal to sign a photocopy form authorizing disbursement of funds is not
conduct protected by the First Amendment. Second, even if some cell searches may be deemed
adverse action, especially when a prisoner’s property is taken, see Bell v. Johnson, 308 F.3d 594,

19

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.417 Filed 03/19/19 Page 20 of 25

606 (6th Cir. 2002) (citing Walker v. Bain, 257 F.3d 660, 664 (6th Cir. 2001)), it is doubtful that a
simple search without the taking of property could be so deemed. Third, absolutely nothing
suggests that Defendant Berean acted with a retaliatory motive when she ordered the cell searched.
Indeed, Plaintiff himself alleges that Defendant Berean believed that Plaintiff had a paper that
belonged to Berean. The fact that Berean was wrong does not indicate that her motive was
improper.
For all of these reasons, Plaintiff fails to state a retaliation claim against Defendant
Berean.
V.

Due Process - Start Program

Plaintiff suggests that he was deprived of his right to due process when Defendants
Washington and Parish established and continued to utilize the Start program beyond the year
(2017) in which the pilot program was adopted. Plaintiff asserts that DOMs are valid only for one
year. Therefore, he contends that his rights were violated.
Claims under § 1983 can only be brought for “deprivation of rights secured by the
constitution and laws of the United States.” Lugar v. Edmondson Oil Co., 457 U.S. 922, 924
(1982). Section 1983 does not provide redress for a violation of a state law or policy. Pyles v.
Raisor, 60 F.3d 1211,1215 (6th Cir. 1995); Sweeton v. Brown, 27 F.3d 1162, 1166 (6th Cir. 1994).
Plaintiffs assertion that Defendants violated state law therefore fails to state a claim under § 1983.
Moreover, Plaintiffs argument is frivolous.

Although DOMs are valid only for one year,

Defendant Washington issued new DOMs in 2018 and 2019, continuing the Start program. See
DOM 2019-22 (eff. Jan. 1, 2019); DOM 2018-22R (eff. Jan. 1, 2018).
Moreover, Plaintiffs confinement in the Start unit does not violate due process.
“The Fourteenth Amendment protects an individual from deprivation of life, liberty or property,

20

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.418 Filed 03/19/19 Page 21 of 25

without due process of law.” Bazetta v. McGinnis, 430 F.3d 795, 801 (6th Cir. 2005). To establish
a Fourteenth Amendment procedural due process violation, a plaintiff must show that one of these
interests is at stake. Wilkinson v. Austin, 545 U.S. 209, 221 (2005). Analysis of a procedural due
process claim involves two steps: “[T]he first asks whether there exists a liberty or property interest
which has been interfered with by the State; the second examines whether the procedures attendant
upon that deprivation were constitutionally sufficient.” Ky. Dep ’t of Corr. v. Thompson, 490 U.S.
454, 460 (1989). The Supreme Court long has held that the Due Process Clause does not protect
every change in the conditions of confinement having an impact on a prisoner. See Meachum v.
Fano, 427 U.S. 215, 225 (1976). In Sandlin v. Conner, 515 U.S. 472, 484 (1995), the Court set
forth the standard for determining when a state-created right creates a federally cognizable liberty
interest protected by the Due Process Clause. According to the Sandlin Court, a prisoner is entitled
to the protections of due process only when the sanction “will inevitably affect the duration of his
sentence” or when a deprivation imposes an “atypical and significant hardship on the inmate in
relation to the ordinary incidents of prison life.” Sandin, 515 U.S. at 486-87; see also Jones v.
Baker, 155 F.3d 810, 812 (6th Cir. 1998); Rimmer-Bey v. Brown, 62 F.3d 789, 790-91 (6th Cir.
1995). The Sandin Court concluded that mere placement in administrative segregation did not
implicate a liberty interest because the segregation at issue in that case did not impose an atypical
and significant hardship. Sandin, 515 U.S. at 484; Wilkinson v. Austin, 545 U.S. 209, 222-23
(2005).
Here, Plaintiff complains of his placement in the Start unit, which is a structured
alternative to administrative segregation that permits prisoners to advance through progressive
levels, depending on their behavior. Such a program, which is less restrictive on the whole than

21

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.419 Filed 03/19/19 Page 22 of 25

the administrative segregation at issue in Sandin, necessarily falls short of an atypical and
significant hardship. Plaintiffs claim, therefore fails to rise to the level of a due process violation.
VI.

Interference with Grievances

Plaintiff alleges that Defendant Berean interfered with his right to file and appeal
grievances, by failing to provide him timely copies of grievance forms and failing to assign a legal
writer. He also suggests that Berean’s actions deprived him of his rights to due process and to
petition government.
Plaintiff has no due process right to file a prison grievance. The courts repeatedly
have held that there exists no constitutionally protected due process right to an effective prison
grievance procedure. See Hewitt v. Helms, 459 U.S. 460, 467 (1983); Walker v. Mich. Dep’t of
Corr., 128 F. App’x 441, 445 (6th Cir. 2005); Argue v. Hofmeyer, 80 F. App’x 427, 430 (6th Cir.
2003); Young v. Gundy, 30 F. App’x 568, 569-70 (6th Cir. 2002); Carpenter v. Wilkinson, No. 993562,2000 WL 190054, at *2 (6th Cir. Feb. 7,2000); see also Antonelli v. Sheahan, 81 F.3d 1422,
1430 (7th Cir. 1996); Adams v. Rice, 40 F.3d 72, 75 (4th Cir. 1994) (collecting cases). Michigan
law does not create a liberty interest in the grievance procedure. See Olim v. Wakinekona, 461
U.S. 238, 249 (1983); Keenan v. Marker, 23 F. App’x 405, 407 (6th Cir. 2001); Wynn v. Wolf, No.
93-2411,1994 WL 105907, at * 1 (6th Cir. Mar. 28,1994). Because Plaintiff has no liberty interest
in the grievance process, Defendant Berean’s conduct did not deprive him of due process.
Petitioner’s right to petition government also is not violated by Defendant’s failure
to process or act on his grievances. The First Amendment “right to petition government does not
guarantee a response to the petition or the right to compel government officials to act on or adopt
a citizen’s views.” Apple v. Glenn, 183 F.3d 477, 479 (6th Cir. 1999). Moreover, Defendant’s
actions have not barred Plaintiff from seeking a remedy for his grievances. See Cruz v. Beto, 405

22

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.420 Filed 03/19/19 Page 23 of 25

U.S. 319, 321 (1972). “A prisoner’s constitutional right to assert grievances typically is not
violated when prison officials prohibit only ‘one of several ways in which inmates may voice their
complaints to, and seek relief, from prison officials’ while leaving a formal grievance procedure
intact.” Griffin v. Berghuis, 563 F. App’x 411, 415-16 (6th Cir. 2014) (citing N.C. Prisoners’
Labor Union, Inc., 433 U.S. 119, 130 n.6 (1977)). Indeed, Plaintiffs ability to seek redress is
underscored by his pro se invocation of the judicial process. See Azeez v. DeRobertis, 568 F. Supp.
8, 10 (N.D. Ill. 1982). Even if Plaintiff had been improperly prevented from filing a grievance,
his right of access to the courts to petition for redress of his grievances (i.e., by filing a lawsuit)
cannot be compromised by his inability to file institutional grievances, and he therefore cannot
demonstrate the actual injury required for an access-to-the-courts claim. See, e.g., Lewis v. Casey,
518 U.S. 343, 355 (1996) (requiring actual injury); Bounds v. Smith, 430 U.S. 817, 821-24 (1977).
The exhaustion requirement only mandates exhaustion of available administrative remedies. See
42 U.S.C. § 1997e(a). If Plaintiff were improperly denied access to the grievance process, the
process would be rendered unavailable, and exhaustion would not be a prerequisite for initiation
of a civil rights action. See Ross v. Blake, 136 S. Ct. 1850, 1858-59 (2016) (reiterating that, if the
prisoner is barred from pursuing a remedy by policy or by the interference of officials, the
grievance process is not available, and exhaustion is not required); Kennedy v. Tallio, 20 F. App’x
469, 470 (6th Cir. 2001).
In light of the foregoing, the Court finds that Plaintiff fails to state a federal claim
arising out of Berean’s alleged interference with Plaintiffs filing of grievances.

23

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD,421 Filed 03/19/19 Page 24 of 25

VII.

Motion to Stop Transfer

Plaintiff has now filed an “Emergency Motion to Stop Plaintiffs Transfer[] During
the Pendency of this 42 USC § 1983 Civil Proceeding.” The Court construes the motion as one
seeking preliminary injunctive relief.
Preliminary injunctions are “one of the most drastic tools in the arsenal of judicial
remedies.” Bonnell v. Lorenzo, 241 F.3d 800, 808 (6th Cir. 2001) (quoting Hanson Trust PLC v.
ML SCM Acquisition Inc., 781 F.2d 264, 273 (2d Cir. 1986)). The issuance of preliminary
injunctive relief is committed to the discretion of the district court. See Ne. Ohio Coal. v.
Blackwell, 467 F.3d 999, 1009 (6th Cir. 2006); Nader v. Blackwell, 230 F.3d 833, 834
(6th Cir. 2000).

In exercising that discretion, a court must consider whether plaintiff has

established the following elements: (1) a strong or substantial likelihood of success on the merits;
(2) the likelihood of irreparable injury if the preliminary injunction does not issue; (3) the absence
of harm to other parties; and (4) the protection of the public interest by issuance of the injunction.
Id. These factors are not prerequisites to the grant or denial of injunctive relief, but factors that
must be “carefully balanced” by the district court in exercising its equitable powers. Frisch’s
Rest., Inc. v. Shoney’s, Inc., 759 F.2d 1261, 1263 (6th Cir. 1985); see also Ne. Ohio Coal., 467
F.3d at 1009. Moreover, where a prison inmate seeks an order enjoining state prison officials, the
court is required to proceed with the utmost care and must recognize the unique nature of the prison
setting. See Glover v. Johnson, 855 F.2d 277, 284 (6th Cir. 1988); Kendrick v. Bland, 740 F.2d
432, 438 n.3 (6th Cir. 1984). The party seeking injunctive relief bears a heavy burden of
establishing that the extraordinary and drastic remedy sought is appropriate under the
circumstances. See Overstreet v. Lexington-Fayette Urban Cnty. Gov’t, 305 F.3d 566, 573
(6th Cir. 2002); Stenberg v. Cheker Oil Co., 573 F.2d 921, 925 (6th Cir. 1978).

24

Case l:18-cv-01075-JTN-SJB ECF No. 20, PagelD.422 Filed 03/19/19 Page 25 of 25

In light of the Court’s dismissal of Plaintiffs remaining claims, Plaintiff cannot
demonstrate any likelihood of success on the merits of his underlying complaint. For that reason,
and because the motion expressly seeks relief only so long as the instant action remains pending,
the motion is moot.
Conclusion
Having conducted the review required by the Prison Litigation Reform Act, the
Court will dismiss Plaintiffs claims against Defendants Berean, Parish, and Washington under 28
U.S.C. §§ 1915(e)(2) and 1915A(b), and 42 U.S.C. § 1997e(c).

Plaintiffs motion seeking

preliminary injunctive relief will be denied.
The Court must next decide whether an appeal of this action would be in good faith
within the meaning of 28 U.S.C. § 1915(a)(3). See McGore v. Wrigglesworth, 114 F.3d 601, 611
(6th Cir. 1997). For the same reasons that the Court dismisses the action, the Court discerns no
good-faith basis for an appeal. Should Plaintiff appeal this decision, the Court will assess the
$505.00 appellate filing fee pursuant to § 1915(b)(1), see McGore, 114 F.3d at 610-11, unless
Plaintiff is barred from proceeding in forma pauperis, e.g., by the “three-strikes” rule of § 1915(g).
If he is barred, he will be required to pay the $505.00 appellate filing fee in one lump sum.
This is a dismissal as described by 28 U.S.C. § 1915(g).

Dated:

Is/ Janet T. Neff
Janet T. Neff
United States District Judge

March 19,2019

25

